No. 19-631
IN THE

Supreme Court of the United States
_________
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
Petitioners,
v.
AMERICAN ASSOCIATION OF POLITICAL CONSULTANTS, INC., ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 1st day of April 2020, caused three copies of the Brief of Midland
Credit Management, Inc. as Amicus Curiae in Support of Respondents to be served via
overnight mail and an electronic version of the document to be transmitted via the
Court’s electronic filing system to:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for William P. Barr,
Attorney General, et al.

Roman Martinez V
Latham & Watkins, LLP
555 Eleventh Street, NW
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com
Counsel for American Association of
Political Consultants, Inc., et al.

/s/ Zachary C. Schauf
Zachary C. Schauf

